CERTIFICATE OF COMPLIANCE
Case No. _ _ __
Caption: Keohane v. Florida Department of

Corrections Secretary

As required by Supreme Court Rule 33. l(h),
I certify that the document contains 3,355 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 3, 2021.

icoleGarci

Record Press, Inc.

Sworn to before me on
May 3, 2021
ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
ommission Expires April 18, 2024

